                  The Limited Issue Focused Examination
                    Process Has Merit, but Its Use and
                        Productivity Are Concerns

                                  February 2005

                       Reference Number: 2005-30-029




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    February 18, 2005


      MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS
                     DIVISION



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - The Limited Issue Focused Examination
                                    Process Has Merit, but Its Use and Productivity Are Concerns
                                    (Audit # 200330034)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      Limited Issue Focused Examination (LIFE) process. The objective of this review was to
      assess the effect the LIFE process has on the outcomes of the IRS’ Large and Mid-Size
      Business (LMSB) Division1 examinations. To meet our objective, we determined the
      progress that has been made towards incorporating the LIFE process into examinations
      and the potential it has for reducing the length of examinations, generating higher
      degrees of productivity, and minimizing taxpayer burden. We also assessed the status
      of ongoing changes, if any, to improve the process.
      In summary, the LIFE process has merit for reducing the length of examinations. With
      increasing workloads and a renewed emphasis on enforcing compliance, using methods
      and techniques that reduce the length of examinations by focusing on a few material
      issues and resolving them as early as possible is a sound business decision. Estimates
      were not available on the extent to which the LIFE process saved large businesses
      money because taxpayer burden reduction data were not tracked or evaluated in LIFE
      cases.2 However, representatives from large businesses that we spoke with believed
      the process produced savings in terms of reducing the length of examinations.
      Moreover, our analysis of LMSB Division statistics showed that LIFE cases, on average,
      were completed in 236 fewer days than non-LIFE cases.

      1
        The LMSB Division is one of four IRS operating divisions. It is responsible for examining the tax returns of large
      businesses (those corporations and partnerships reporting more than $10 million in assets) to determine if they have
      paid the proper amount of tax.
      2
        For purposes of this report, a case refers to an examination of one or more returns unless otherwise noted.
                                                         2

Introduced publicly in December 2002, the LIFE process was announced by the LMSB
Division as a major cultural shift and significant change to the way examinations are
conducted. The goals of the LIFE process include restricting examinations of large
businesses to the few issues on their tax returns that pose the greatest compliance risk.
The underlying concept for the LIFE process is based on the assumption that, by
focusing on a few critical issues, the scope, depth, length, and burden of examinations
can be reduced while higher degrees of productivity3 are realized.
While the LIFE process has merit, efforts to incorporate it into the examination process
of large businesses have made little progress. As of September 2004, approximately
4.2 percent of the examinations initiated for large businesses involved the LIFE process.
The business results from these cases are a concern because the statistics show LIFE
cases are generating significantly less additional recommended taxes than other large
business examinations, which could affect tax revenues. Our analysis indicates if the
IRS allocated 5 percent of the available examinations of large businesses to the LIFE
process over the next 5 years, the amount of recommended additional taxes could drop
an average of $349 million a year ($1.7 billion over 5 years).
The limited progress and productivity from LIFE cases were caused, in large part, by
implementing the LIFE process nationally before demonstrable results were obtained
from a pilot project4 that supported full-scale implementation. Our onsite visits and other
work show that this approach is proving too ambitious and difficult to manage
considering the significance of the change and its near simultaneous introduction to
over 5,400 examiners5 located in offices throughout the nation. Successful organization
best practices suggest that significant work process changes, such as the LIFE process,
have a greater potential for success when they are piloted before wide implementation.6
We found, for example, the progress of implementing the LIFE process was hindered
by a new initiative, the Currency and Cycle Time Improvement Initiative (Currency
Initiative), that overlapped with the implementation of the LIFE process and was more
aggressive in holding examiners accountable for closing examinations. As a result,
examiners gave the Currency Initiative a higher priority than the LIFE process, which
had the effect of reducing the number of LIFE cases. Additionally, our review of


3
  Productivity measures the efficiency with which an organization uses resources; the measures generally take the
form of the ratio of outputs to inputs. In IRS examinations, a productivity measure is the amount of recommended
assessments (output) per direct examination time (input). This measure is commonly referred to as dollars per hour.
4
  Pilot projects are essentially trial runs of process changes that are typically conducted on a small scale and at a
limited number of sites. Their purpose is to evaluate the soundness of the proposed changes and to identify trouble
spots so corrective actions can be taken before full-scale implementation.
5
  As discussed in this report, the term examiner encompasses front-line managers who supervise the teams of
examiners in the LMSB Division. We included front-line managers under the term “examiner” because of the
significant amount of involvement they should have in LIFE cases. Among other things, in LIFE cases they are
responsible for approving risk assessments, executing the LIFE agreement with large businesses, approving the
expansion of examination scopes, and terminating the LIFE process if that becomes necessary.
6
  Government Accountability Office (GAO) documents entitled, Business Process Reengineering Assessment Guide
(GAO/AIMD-10.1.15, dated May 1997) and Tax Administration: Planning for IRS’s Enforcement Process Changes
Included Many Key Steps but Can Be Improved (GAO-04-287, dated January 2004).
                                             3

24 LIFE cases found that important procedures were not always followed in conducting
the risk assessment portion of the LIFE process. The risk assessment, from a
productivity and compliance risk standpoint, is critical to the success of the LIFE
process because it incorporates materiality considerations in ultimately determining the
large, unusual, and questionable tax issues that will be examined. Consequently, if risk
and materiality are not adequately and effectively assessed, significant tax issues may
be overlooked that could reduce the amount of recommended additional taxes from
examinations. To its credit, the LMSB Division has already begun to take steps in
response to this problem and is enhancing the training of examiners.
While the training is important, in our opinion training, alone, will not ensure the success
of the LIFE process. The LMSB Division will need to closely monitor risk assessments
in LIFE cases to pinpoint and correct trouble spots that could arise as examiners begin
applying their training in the “real world” environment. Further, in terms of productivity
and compliance risk, the LMSB Division will need to ensure two major procedural
requirements are followed. First, specialists such as engineers and international
examiners need to be involved in determining the scope and depth of LIFE cases.
Second, the mandatory tests of income, inventory, and related returns need to be
properly addressed.
Although the LIFE process presents some real opportunities for the LMSB Division to
reduce the length of examinations, limited progress has been made to incorporate it into
large business examinations, and there are significant uncertainties surrounding the
impact it could have on tax revenues. Because of these and other concerns, we
recommended the Commissioner, LMSB Division, (1) develop and implement a plan for
analyzing data on LIFE examinations that is reliable and can serve as the basis for
correcting any problems identified, (2) clarify if and how the LMSB Division’s Currency
Initiative is to be integrated with the LIFE process, and (3) ensure that mid-level
managerial reviews include evaluating open cases and assessing whether the LIFE
process is being properly considered for and used in examinations.
Management’s Response:
The Commissioner, LMSB Division, is taking corrective action on all but one of our three
recommendations. The LMSB Division is changing its approach for collecting and
analyzing data on LIFE examinations by including the results of subsequent year and
related examinations in program monitoring. The LMSB Division will also develop a set
of review procedures involving at least six items related to the LIFE process. However,
the Commissioner, LMSB Division, responded there will not be a need to clarify for
examiners the integration of the Currency Initiative with the LIFE process since the
Currency Initiative was substantially completed by April 2004.
The Commissioner, LMSB Division, also did not agree with our estimates of the benefit
that could be realized by implementing our recommendations. The response suggested
that our approach did not fully consider certain types of examinations that the LMSB
Division believes distort business results when comparing LIFE examinations to the
                                            4

other returns closed during the same period. Management’s complete response to the
draft report is included as Appendix VI.
Office of Audit Comment:
We agree that there will not be a need to clarify for examiners the integration of the
Currency Initiative with the LIFE process since the Currency Initiative was substantially
completed by April 2004, according to the Commissioner, LMSB Division. The
Currency Initiative was originally scheduled to be implemented in two phases and would
have likely extended it well beyond the time period covered by this review, hence, the
reason for the recommendation.
With respect to our estimate of the benefit that could be realized by implementing our
recommendations, the Commissioner, LMSB Division, recognized in the response that
initial results of the LIFE process are not impressive, but recent results have improved.
The Commissioner also implies that results from certain types of examinations in the
IRS databases should have been eliminated from and/or added to our estimate. We
agree eliminating results from certain types of examinations and adding results from
others can affect the calculation. However, we chose to use the complete examination
results as they were reflected in the IRS databases and continue to believe that our
estimate sufficiently quantifies the benefit.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Parker F. Pearson, Director (Small Business Compliance), at (410) 962-9637.
                    The Limited Issue Focused Examination Process Has Merit,
                            but Its Use and Productivity Are Concerns




                                                  Table of Contents


Background ............................................................................................... Page 1
The Issue Focused Approach to Compliance Shows
Promise in Addressing Concerns .............................................................. Page 3
Statistical Trends Raise Questions About the Limited Issue Focused
Examination Process................................................................................. Page 6
         Recommendations 1 and 2: ...........................................................Page 11
         Recommendation 3: .......................................................................Page 12

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 13
Appendix II – Major Contributors to This Report ....................................... Page 15
Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – Outcome Measures............................................................ Page 17
Appendix V – Memorandum of Understanding for Limited Issue
Focused Examinations .............................................................................. Page 19
Appendix VI – Management’s Response to the Draft Report .................... Page 22
             The Limited Issue Focused Examination Process Has Merit,
                     but Its Use and Productivity Are Concerns

                               The Large and Mid-Size Business (LMSB) Division is one
Background
                               of four Internal Revenue Service (IRS) operating divisions.
                               It is responsible for examining the tax returns of large
                               businesses (those corporations and partnerships reporting
                               more than $10 million in assets) to determine if they have
                               paid the proper amount of tax. Because of the size and
                               complexity of the large businesses examined under the
                               jurisdiction of the LMSB Division, engineers, economists,
                               international examiners, and other specialists provide
                               assistance with these examinations. IRS data show that, in
                               Fiscal Year (FY) 2004, the LMSB Division completed
                               examinations of 19,452 returns and recommended large
                               businesses pay $18.2 billion in additional taxes.
                               The Limited Issue Focused Examination (LIFE) process was
                               introduced publicly in December 2002 as a streamlined
                               alternative to the traditional full-scope examination process.
                               As summarized in Table 1, it involves six key elements and
                               includes a requirement that examiners and large businesses
                               enter into a Memorandum of Understanding (MOU).

                                                Table 1: Key Elements of the LIFE Process
                                             Steps                                Description

                                   1. Engaging the taxpayer.   The possibly of using the LIFE process should be
                                                               discussed in the early stages of the examination.
                                   2. Conducting a risk        The tax return and records are reviewed to
                                      analysis.                identify large, unusual, and questionable tax
                                                               issues.
                                   3. Considering the          Large, unusual, and questionable tax issues are
                                      materiality of tax       prioritized for examination.
                                      issues.
                                   4. Reducing the scope of    The prioritized large, unusual, and questionable
                                      the examination.         tax issues are pared down to the critical few.
                                   5. Executing the MOU.       The MOU is required and signed by both the
                                                               taxpayer and the IRS.
                                   6. Terminating the LIFE     Either the taxpayer or the LMSB Division may
                                      process.                 terminate the LIFE process.
                               Source: The IRS Internal Revenue Manual (IRM).1

                               The purpose of the LIFE process MOU is to control key
                               aspects of the examination by outlining mutually agreed on
                               time periods for requesting and submitting tax records,


                               1
                                The IRM serves as the official compilation of procedures, instructions,
                               and guidelines that govern operations in the IRS.
                                                                                                         Page 1
The Limited Issue Focused Examination Process Has Merit,
        but Its Use and Productivity Are Concerns

                  discussing the progress of the examination, and presenting
                  and responding to examination results. Additional details
                  on the MOU used in LIFE examinations can be found in
                  Appendix V, where it has been reprinted.
                  When compared to the traditional full-scope examination,
                  the LIFE process has similarities and important differences.
                  In both types of examinations, an examiner2 usually starts
                  by reviewing the tax return of the large business to identify
                  large, unusual, or questionable tax issues (e.g., income,
                  deductions, credits) that should be examined. Once the
                  large, unusual, or questionable tax issues are identified, the
                  examiner collects and evaluates information that was used
                  to support these tax issues on the tax return. If the examiner
                  determines the information collected from the large business
                  is insufficient to support the tax issues, the examiner
                  recommends an adjustment and computes a new tax
                  liability. Conversely, if the information supports the tax
                  issues, the examiner recommends no change to the
                  originally reported tax liability.
                  The procedures for a traditional full-scope examination
                  require that examiners complete numerous mandatory tests
                  in addition to examining large, unusual, or questionable tax
                  issues. For example, examiners are required to document
                  the results of as many as 13 tests in verifying whether
                  inventories and income were correctly reported on the tax
                  returns of large businesses. Reviews are also made of all
                  other tax returns related to the one being examined.
                  While the LIFE process follows steps similar to those in a
                  traditional full-scope examination in terms of collecting and
                  evaluating information from large business, there are
                  important differences. These differences should result in




                  2
                    As discussed in this report, the term “examiner” encompasses
                  front-line managers who supervise the teams of examiners in the LMSB
                  Division. We included front-line managers under the term “examiner”
                  because of the significant amount of involvement they should have in
                  LIFE cases. Among other things, in LIFE cases they are responsible for
                  approving risk assessments, executing the LIFE agreement with large
                  businesses, approving the expansion of examination scopes, and
                  terminating the LIFE process if that becomes necessary.
                                                                                Page 2
               The Limited Issue Focused Examination Process Has Merit,
                       but Its Use and Productivity Are Concerns

                                 LIFE cases3 taking less time to complete than full-scope
                                 examinations. In LIFE cases, for example, there should be
                                 fewer tax issues involved in the examination since the LIFE
                                 process incorporates risk analysis and materiality
                                 considerations to limit the number of large, unusual, and
                                 questionable tax issues that will be examined. Moreover,
                                 most mandatory tests can be waived, including those
                                 involving inventory and income. Unlike the traditional
                                 full-scope examination process, the LIFE process also seeks
                                 to lessen the natural tension that exists between examiners
                                 and large business taxpayers by jointly holding both parties
                                 responsible for the timely completion of the examination.
                                 This review was performed at the LMSB Division
                                 Headquarters in Washington, D.C., and IRS offices in
                                 the San Francisco, California; Chicago, Illinois; and
                                 Boston, Massachusetts, metropolitan areas during the period
                                 October 2003 through May 2004. The audit was conducted
                                 in accordance with Government Auditing Standards.
                                 Detailed information on our audit objective, scope, and
                                 methodology is presented in Appendix I. Major
                                 contributors to the report are listed in Appendix II.
                                 We believe the LIFE process has merit for reducing the
The Issue Focused Approach to
                                 length of examinations. With increasing workloads and a
Compliance Shows Promise in
                                 renewed emphasis on enforcing compliance, using methods
Addressing Concerns
                                 and techniques that reduce the length of examinations by
                                 focusing on a few material issues and resolving them as
                                 early as possible is a sound business decision. Since
                                 stand-up4 nearly 4 years ago, the LMSB Division has been
                                 emphasizing a more issue focused approach to encourage
                                 and enforce compliance. This approach, which is embodied
                                 in the LMSB Division Issue Management Strategy, is
                                 shifting the emphasis away from lengthy examinations and
                                 towards processes that are focused on resolving tax issues
                                 earlier in the process.


                                 3
                                   For purposes of this report, a case refers to an examination of one or
                                 more returns unless otherwise noted.
                                 4
                                   The IRS defines “stand up” as the establishment of a new organization
                                 with at least the minimum requirement of operating including a finance
                                 office, separate budget, key management positions filled, temporary
                                 solutions to problems, personnel actions for realignment completed, and
                                 necessary business authorities in place.
                                                                                                 Page 3
The Limited Issue Focused Examination Process Has Merit,
        but Its Use and Productivity Are Concerns

                  IRS and LMSB Division strategic planning documents show
                  that there are at least two factors driving this change. First,
                  issue-driven processes create opportunities for the LMSB
                  Division to enhance service to and reduce burden on large
                  businesses. Large businesses have long complained about
                  the time, costs, and hence burdens, associated with lengthy
                  examinations of their tax returns. In recent testimony before
                  the United States Senate Finance Committee, the IRS
                  Commissioner stated:
                      It currently takes two years on average before
                      complicated corporate returns find their way into
                      the hands of the assigned examiner, and it takes five
                      years from the date the return is filed for us to
                      complete the audit [examination] of a large,
                      complex corporation. (These figures do not include
                      the appeals process, which may take another two
                      years before the matter is settled or goes to court.)
                  Second, by focusing on the high-risk, significant issues and
                  resolving them sooner, the LMSB Division anticipates that
                  examiners will have more time to better meet the demands
                  of a growing workload with increasing complexity. This is
                  important because, among other things, the number of
                  returns being filed by large businesses is increasing and
                  there is a renewed emphasis on enforcing compliance due,
                  in part, to the promotion and use of abusive tax shelters. By
                  nature, abusive tax shelters are complex and difficult to
                  detect on tax returns because steps are generally taken to
                  hide them within transactions reported on the returns.
                  According to the IRS and others, abusive tax shelters
                  involve billions of dollars and therefore deserve
                  substantially increased attention.
                  As we have previously reported,5 the LMSB Division has
                  successfully designed, tested, and implemented under its
                  Issue Management Strategy processes that are encouraging
                  the early resolution of tax issues in both the prefiling and

                  5
                   Treasury Inspector General for Tax Administration reports entitled,
                  The Pre-Filing Agreement Pilot Project Was Successful, But Faces
                  Challenges in Converting to an Operational Program (Reference
                  Number 2001-30-125, dated August 2001) and The Fast Track Dispute
                  Resolution Pilot Program Was Successful, but Some Challenges Remain
                  (Reference Number 2004-30-119, dated July 2004).
                                                                              Page 4
The Limited Issue Focused Examination Process Has Merit,
        but Its Use and Productivity Are Concerns

                  postfiling stages of the tax return. For example, a prefiling
                  agreement process was introduced through a pilot project6 in
                  Calendar Year 2001 and subsequently converted to a
                  permanent program. The program permits a taxpayer to
                  resolve, before the filing of a return, the treatment of an
                  issue that otherwise would likely be disputed in a postfiling
                  examination. A “fast track” process for resolving disputes
                  that surface in examinations has also been piloted and
                  converted to a permanent program. The goal of the program
                  is to expedite the entire postfiling issue resolution process
                  by bringing in the IRS Office of Appeals to resolve disputes
                  concurrent with, rather than subsequent to, an examination.
                  As a component of the Issue Management Strategy, the
                  LIFE process was announced by the LMSB Division as a
                  major cultural shift and significant change to the way
                  examinations are conducted. The goals of the LIFE process
                  include restricting examinations of large businesses to the
                  few issues on their tax returns that pose the greatest
                  compliance risk. The underlying concept for the LIFE
                  process is based on the assumption that, by focusing on a
                  few critical issues, the scope, depth, length, and burdens of
                  examinations can be reduced while higher degrees of
                  productivity7 are realized.
                  Estimates were not available on the extent to which the
                  LIFE process saved large businesses money because burden
                  reduction data were not tracked or evaluated in LIFE cases.
                  However, representatives from large businesses we spoke
                  with believe the process produced savings in terms of
                  reducing the length of examinations. As shown in Table 2,
                  our analyses of LMSB Division statistics show that LIFE
                  cases, on average, were completed in 236 fewer days than
                  non-LIFE cases.

                  6
                    Pilot projects are essentially tests or trial runs of process changes that
                  are typically conducted on a small scale and at a limited number of sites.
                  Their purpose is to evaluate the soundness of the proposed changes and
                  to identify trouble spots so corrective actions can be taken before
                  full-scale implementation.
                  7
                    Productivity measures the efficiency with which an organization uses
                  resources; the measures generally take the form of the ratio of outputs to
                  inputs. In IRS examinations, a productivity measure is the amount of
                  recommended assessments (output) per direct examination time (input).
                  This measure is commonly referred to as dollars per hour.
                                                                                     Page 5
               The Limited Issue Focused Examination Process Has Merit,
                       but Its Use and Productivity Are Concerns

                                     Table 2: Comparison Between the Length of Non-LIFE and
                                                  LIFE Cases (FY 2003 – 2004)

                                       Type of examination          Average days between examination
                                                                       start date and closure date

                                             Non-Life                               579

                                              LIFE                                  343

                                            Difference                              236

                                 Source: Treasury Inspector General for Tax Administration (TIGTA)
                                 analysis of the IRS’ Audit Information Management System (AIMS)8

                                 While the LIFE process has merit, efforts to incorporate it
Statistical Trends Raise
                                 into the examination process of large businesses have made
Questions About the Limited
                                 little progress. As of September 2004, approximately
Issue Focused Examination
                                 4.2 percent of the examinations initiated of large businesses
Process
                                 involved the LIFE process. This is well below the LMSB
                                 Division’s initial goal of having at least 25 percent of its
                                 examinations using the LIFE process in FY 2006. While
                                 discussing the issues in this report with IRS officials, we
                                 learned officials now see the LIFE process being used in
                                 about 6 percent of examinations. Nevertheless, the business
                                 results from these cases are a concern since the statistics
                                 show LIFE cases are generating less additional
                                 recommended taxes than other large business examinations,
                                 which could impact tax revenues.
                                 To illustrate the potential revenue effect, we analyzed a
                                 hypothetical allocation of 5 percent of the available
                                 examinations to LIFE cases over the next 5 years. The
                                 estimate is based on 677 LIFE cases closed in FY 2004 and
                                 the average amount of additional taxes that were
                                 recommended for each hour spent on an examination in
                                 FY 2004. Assuming this data remains constant, our analysis
                                 indicates that by allocating 5 percent of the available
                                 examinations to LIFE cases over the next 5 years, the
                                 amount of recommended additional taxes could drop an

                                 8
                                   The AIMS is a computer system used to control returns, input
                                 assessments/adjustments to the Master File, and provide management
                                 reports. The Master File is the IRS database that stores various types of
                                 taxpayer account information. This database includes individual,
                                 business, and employee plans and exempt organization data.
                                                                                                  Page 6
The Limited Issue Focused Examination Process Has Merit,
        but Its Use and Productivity Are Concerns

                  average of $349 million a year ($1.7 billion over 5 years).
                  Appendix IV contains additional details on our analysis.
                  The limited progress and productivity from LIFE cases was
                  caused, in large part, by implementing the LIFE process
                  nationally before demonstrable results were obtained from a
                  pilot project that supported full-scale implementation. As
                  described in more detail below, our onsite visits and other
                  work show this approach is proving too ambitious and
                  difficult to manage considering the significance of the
                  change and its near simultaneous introduction to over
                  5,400 examiners located in offices throughout the nation.
                  The LMSB Division’s past experiences and best practices of
                  other organizations suggest that significant work process
                  changes, such as the LIFE process, have a greater potential
                  for success when they are piloted before wide
                  implementation.9
                  The progress of the LIFE process was hindered by an
                  aggressive new initiative that overlapped with its
                  implementation
                  In September 2003, the LMSB Division moved forward
                  with a Currency and Cycle Time Improvement Initiative10
                  (Currency Initiative) that overlapped with the
                  implementation of the LIFE process and was more
                  aggressive in holding examiners accountable for closing
                  examinations. It was more aggressive than the LIFE
                  process because it directed examiners to meet specific dates
                  for closing open examinations by establishing specific time
                  periods for requesting and submitting tax records and

                  9
                    Government Accountability Office (GAO) documents entitled,
                  Business Process Reengineering Assessment Guide
                   (GAO/AIMD-10.1.15, dated May 1997) and Tax Administration:
                  Planning for IRS’s Enforcement Process Changes Included Many Key
                  Steps but Can Be Improved (GAO-04-287, dated January 2004).
                  10
                     For examination purposes, a large business taxpayer is considered
                  current in the LMSB Division if each of its returns filed for the last
                  2 years is either under examination or is no longer being considered for
                  examination. The LMSB Division uses cycle time to measure the
                  timeliness of examinations, which is defined as the average number of
                  months from when a return is filed until the examination process is
                  completed. In FY 2004, Industy Case and Coordinated Industry Case
                  examinations were considered timely if, on average, they were
                  completed within 34 and 58 months, respectively.
                                                                                   Page 7
The Limited Issue Focused Examination Process Has Merit,
        but Its Use and Productivity Are Concerns

                  presenting and responding to examination results. As a
                  result, examiners gave the Currency Initiative a higher
                  priority than the LIFE process, which potentially had the
                  effect of reducing the number of LIFE cases.
                  During our interviews with examiners involved in
                  33 non-LIFE cases, we were told the Currency Initiative
                  essentially required restricting examination scopes to meet
                  the deadlines established for closing examinations. They
                  also expressed concern that the LIFE process could inhibit
                  their ability to meet deadlines because of the additional time
                  that could be involved in negotiating the various items in the
                  MOU. Consequently, examiners saw limited benefit in
                  using the LIFE process.
                  Examiners could have been better prepared to conduct
                  examinations using the LIFE process
                  From a productivity and compliance standpoint, the risk
                  assessment is critical to the success of the LIFE process.
                  The risk assessment incorporates materiality considerations
                  in ultimately determining the large, unusual, and
                  questionable tax issues that will be examined.
                  Consequently, if risk and materiality are not adequately and
                  effectively assessed, significant tax issues may be
                  overlooked that could reduce the amount of recommended
                  additional taxes from examinations.
                  Although mandatory LIFE process training and risk analysis
                  instructions had been provided, we found examiners had
                  difficulty consistently completing required steps in the risk
                  assessment. We briefed officials in the LMSB Division
                  about our findings in this area during a meeting in
                  February 2004. To its credit, the LMSB Division has
                  already taken steps to address the problem and is enhancing
                  the training of examiners.
                  A course that is standardizing the risk assessment process
                  was developed and offered to all examiners beginning on
                  June 10, 2004. While the training is important, in our
                  opinion training, alone, will not ensure the success of the
                  LIFE process. The LMSB Division will need to closely
                  monitor risk assessments in LIFE cases to pinpoint and
                  correct trouble spots that could arise as examiners begin
                  applying their training in the “real world” environment.

                                                                         Page 8
The Limited Issue Focused Examination Process Has Merit,
        but Its Use and Productivity Are Concerns

                  Management controls could have been stronger to
                  ensure required procedures were followed
                  During our onsite visits, we found mid-level managers had
                  conducted 17 operational reviews of the examination teams
                  they supervised. According to the IRM, these reviews are
                  required to be performed at least annually and serve as a
                  mechanism (control) for ensuring work is being done in
                  conformance with procedures and standards.
                  Although not specifically required by the IRM, the LMSB
                  Division Headquarters Office assembled review teams
                  consisting of managers and analysts that also conducted
                  onsite visits to seven offices in conjunction with the
                  Currency Initiative. The purpose of the visits was to
                  identify barriers and concerns with the Currency Initiative
                  and to serve as a basis for taking needed corrective actions.
                  However, none of the managerial reviews included
                  evaluating open examination cases and assessing how well,
                  or if, the LIFE process was being incorporated into the
                  examinations. As a result, opportunities to ensure important
                  procedures were followed in LIFE cases were missed in
                  three areas. Two of the three areas could have lowered the
                  assessments from LIFE cases, while the third area made the
                  results from LIFE cases less reliable.
                  The first area that could have lowered the assessments from
                  LIFE cases entailed the mandatory use of specialists, such
                  as engineers, economists, and international examiners.
                  Because of the complexity of examinations in the LMSB
                  Division, examiners are required to call upon specialists
                  who have the technical training needed to assist in the
                  identification, selection, and examination of tax issues that
                  pose the highest compliance risk. However, our review of
                  24 LIFE cases found 11 did not include the involvement of
                  1 or more specialists, which raises questions about whether
                  the tax issues that pose the highest compliance risk are
                  being included in examinations. We previously reported
                  that approximately $1.9 billion of potential tax adjustments




                                                                         Page 9
The Limited Issue Focused Examination Process Has Merit,
        but Its Use and Productivity Are Concerns

                  were overlooked because specialists had not been involved
                  in examinations.11
                  Another area that could have lowered the recommended
                  assessments from LIFE cases involved the mandatory tests
                  of inventory, income, and related returns. In terms of
                  dollars and compliance risk, these items, including those
                  reported on investment schedules and on the related returns
                  of key executives of large businesses, can be significant.
                  Because of the dollars and risk involved, the IRM requires
                  that examiners document in the examination case files the
                  results of numerous tests in each of the three areas to
                  identify potential tax issues. Our review of 24 LIFE cases
                  found 9 cases in which there was little or no evidence
                  documenting whether the tests were considered, how they
                  were completed, and what conclusions were reached.
                  Without adequate documentation in examination case files,
                  the LMSB Division cannot ensure significant tax issues
                  were not overlooked.
                  The last area involved information in the databases used
                  by the LMSB Division to track and evaluate the results
                  from LIFE cases. As part of our assessment, we
                  electronically analyzed the databases containing information
                  from 808 LIFE cases and found questionable data that
                  could impact the reliability of the LIFE results for
                  decision-making purposes. For example, the databases had
                  52 LIFE cases with $35.6 million of additional
                  recommended assessments in which at least 1 of the returns
                  in the LIFE case indicated the examination was started more
                  than a year before the LIFE process was offered to
                  taxpayers. Because the examination start dates on the cases
                  were so far in advance of implementing the LIFE process,
                  traditional examination procedures could have been used to


                  11
                    TIGTA reports entitled, Controls Over the Identification and
                  Selection of Foreign Controlled Corporations for Examination Need
                  Improvement (Reference Number 2001-30-119, dated July 2001), The
                  Engineer Specialist Program Controls Could Be Improved to Ensure
                  More Timely and Accurate Examinations of Large Corporations
                  (Reference Number 2002-30-149, dated September 2002), and The
                  Financial Products Specialist Program Controls Could Be Improved to
                  Ensure More Timely and Accurate Examinations of Large Corporations
                  (Reference Number 2002-30-147, dated September 2002).
                                                                            Page 10
The Limited Issue Focused Examination Process Has Merit,
        but Its Use and Productivity Are Concerns

                  determine the scope and depth of the examination and not
                  the LIFE process.
                  Alternatively, LMSB Division officials told us there were
                  valid reasons why some LIFE cases were started more than
                  a year before the process was offered to taxpayers. Among
                  others, examiners may have spent relatively little time on
                  the examinations and did not decide on the scope and depth
                  of the examination until after the LIFE process was
                  introduced. Due to the shortcomings with the database we
                  were working with, we were not able to determine the
                  amount of examiner time that was applied to the case before
                  the LIFE process was offered to taxpayers. However, we
                  realize there can be valid explanations for some of the
                  conditions we identified. Consequently, our
                  recommendations recognize that monitoring mechanisms
                  need to identify and evaluate if the LIFE process is being
                  considered and used appropriately in examinations.

                  Recommendations

                  We recommend the Commissioner, LMSB Division:
                  1. Develop and implement a plan for collecting and
                     analyzing data on LIFE examinations that is reliable, can
                     be used for monitoring how well the LIFE process is
                     meeting its performance goals, and can serve as the
                     basis for correcting any problems identified.
                  Management’s Response:
                  The Commissioner, LMSB Division, is changing its
                  approach for collecting and analyzing data on LIFE
                  examinations by including the results of subsequent year
                  and related examinations in program monitoring.
                  2. Clarify for examination personnel if and how the LMSB
                     Division’s Currency Initiative is to be integrated with
                     the LIFE process.
                  Management’s Response:
                  The Commissioner, LMSB Division, responded there will
                  not be a need to clarify for examiners the integration of the
                  Currency Initiative with the LIFE process since the


                                                                        Page 11
The Limited Issue Focused Examination Process Has Merit,
        but Its Use and Productivity Are Concerns

                  Currency Initiative was substantially completed by
                  April 2004.
                  Office of Audit Comment:
                  We agree that there will not be a need to clarify for
                  examiners the integration of the Currency Initiative with the
                  LIFE process since the Currency Initiative was substantially
                  completed by April 2004, according to the Commissioner,
                  LMSB Division. The Initiative was originally scheduled to
                  be implemented in two phases and would have likely
                  extended it well beyond the time period covered by this
                  review, hence, the reason for the recommendation.
                  3. Ensure that mid-level managerial reviews are conducted
                     periodically as part of the quality assurance process and
                     that the reviews include evaluating open cases and
                     assessing whether the LIFE process is being properly
                     considered for and used in examinations.
                  Management’s Response:
                  The Director, Performance Management, Quality
                  Assurance, and Audit Assistance, LMSB Division, will
                  develop a set of review procedures involving at least six
                  items related to the LIFE process. The items will include
                  documentation of a full and robust risk assessment and
                  documentation of consideration of the LIFE process, among
                  others.
                  Office of Audit Comment:
                  With respect to our estimate of the benefit that could be
                  realized by implementing our recommendations, the
                  Commissioner, LMSB Division, recognized in the response
                  that initial results of the LIFE process are not impressive,
                  but recent results have improved. The Commissioner also
                  implies that results from certain types of examinations in the
                  IRS databases should have been eliminated from and/or
                  added to our estimate. We agree eliminating results from
                  certain types of examinations and adding results from others
                  can affect the calculation. However, we chose to use the
                  complete examination results as they were reflected in the
                  IRS databases and continue to believe that our estimate
                  sufficiently quantifies the benefit.


                                                                        Page 12
                The Limited Issue Focused Examination Process Has Merit,
                       but Its Use and Productivity Are Concerns

                                                                                    Appendix I


                      Detailed Objective, Scope, and Methodology

Our objective was to assess the effect the Limited Issue Focused Examination (LIFE) process has
on the outcomes of Internal Revenue Service (IRS) Large and Mid-Size Business (LMSB)
Division examinations. To meet our objective, we determined the progress that has been made
towards incorporating the LIFE process into examinations; the potential it has for reducing the
length of examinations, generating higher degrees of productivity, and minimizing taxpayer
burden; and the status of any ongoing changes to improve the process. To meet our objective,
we relied on the IRS’ internal management reports and databases. We did not establish the
reliability of these data because extensive data validation tests were outside the scope of this
audit and would have required a significant amount of time. To accomplish our objective, we:
    I. Assessed the need and rationale for the LIFE process and verified if a plan was developed
       to implement the process.
   II. Compared the characteristics of the LMSB Division’s full-scope examination process to
       the LIFE process to assess the potential the LIFE process offered for reducing the length
       of examination, generating higher degrees of productivity, and minimizing taxpayer
       burden.
  III. Evaluated a judgmental sample of 33 opened non-LIFE cases out of a population of
       4,291 non-LIFE cases that were opened on or after March 1, 2003, to determine the
       reasons the LIFE process was not used in the examinations. We used judgmental
       sampling due to resource and time constraints.
  IV. Reviewed a judgmental sample of 24 opened LIFE cases out of a population of 272 LIFE
      cases that were opened after January 1, 2003, to determine if examiners followed
      required LIFE procedures. We used judgmental sampling due to resource and time
      constraints.
   V. Computed the potential drop in additional recommended assessments that could be
      avoided by scaling back the implementation of the LIFE process until demonstrable
      results are obtained from a pilot project that supported full-scale implementation.
  VI. Interviewed IRS officials and representatives of large businesses who were involved with
      or affected by the LIFE process to obtain their opinions about how well the process was
      working.




                                                                                          Page 13
                   The Limited Issue Focused Examination Process Has Merit,
                          but Its Use and Productivity Are Concerns

    VII. Used the “best practices” outlined in the Government Accountability Office (GAO)
         Business Process Reengineering Assessment Guide1 to assess the need for scaling back
         the implementation of the LIFE process.
    VIII. Electronically matched and analyzed a database of 808 LIFE cases closed in Fiscal Years
          (FY) 2003 and 2004 with the Audit Information Management System (AIMS)2 closed
          case database for FYs 2003 and 2004 to assess reliability of data for decision-making.




1
  GAO/AIMD-10.1.15, dated May 1997.
2
  The AIMS is a computer system used to control returns, input assessments/adjustments to the Master File, and
provide management reports. The Master File is the IRS database that stores various types of taxpayer account
information. This database includes individual, business, and employee plans and exempt organization data.




                                                                                                          Page 14
               The Limited Issue Focused Examination Process Has Merit,
                      but Its Use and Productivity Are Concerns

                                                                          Appendix II


                          Major Contributors to This Report

Parker Pearson, Director
Philip Shropshire, Director
Frank Dunleavy, Audit Manager
Earl Charles Burney, Lead Auditor
Stanley Pinkston, Senior Auditor
Lawrence Smith, Senior Auditor
Ali Vaezazizi, Auditor




                                                                              Page 15
               The Limited Issue Focused Examination Process Has Merit,
                      but Its Use and Productivity Are Concerns

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Director, Quality Assurance and Performance Management SE:LM:Q
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Large and Mid-Size Business Division SE:LM




                                                                               Page 16
                   The Limited Issue Focused Examination Process Has Merit,
                          but Its Use and Productivity Are Concerns

                                                                                                Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
Increased Revenue – Potential: An average of $349 million a year; $1.7 billion over 5 years.
This represents the drop in additional recommended assessments that could be avoided by
minimizing the uncertainties surrounding the impact the Limited Issue Focused Examination
(LIFE) process could have on tax revenues (see page 6). It is important to recognize additional
recommended assessments can significantly differ from the amount of additional assessments
that are ultimately collected. For example, when taxpayers dispute additional assessments
recommended by examiners, they can challenge the assessments in the Internal Revenue
Service’s (IRS) Office of Appeals. If examiners do not adequately support their recommended
assessments, the Office of Appeals may concede the assessments. The Office of Appeals may
also concede the assessments in full or in part on the basis of considering the hazards of litigating
the recommended assessments.
Methodology Used to Measure the Reported Benefit:
To estimate the potential funds that could be put to better use in future years, we used Fiscal
Year (FY) 2004 data and assumed this data would remain constant over the next 5 years. The
first step in estimating the potential funds that could be put to better use involved matching two
IRS databases. The first database contained 678 returns that were examined which the Large and
Mid-Size Business (LMSB) Division had identified as using the LIFE process. The second
database, the Audit Information Management System (AIMS),1 contained information on the
amount of hours spent on each LIFE and non-LIFE examination closed in FY 2004 and the
accomplishments from those examinations, including the amount of additional taxes
recommended by the examiner.
The data from the resulting match was next summarized by the type and size of large business
tax return, and the LMSB Division program2 under which the return was examined. We then
recomputed the amount of additional recommended assessments in FY 2004 by assuming that
the:

1
  The AIMS is a computer system used to control returns, input assessments/adjustments to the Master File, and
provide management reports. The Master File is the IRS database that stores various types of taxpayer account
information. This database includes individual, business, and employee plans and exempt organization data.
2
  The LMSB Division examines large business tax returns under two programs. The largest of the large businesses
are examined using a team approach in the Coordinated Industry Case Program while all other large business tax
returns are examined in the Industry Case Program where one examiner is generally responsible for examination.
                                                                                                        Page 17
                     The Limited Issue Focused Examination Process Has Merit,
                            but Its Use and Productivity Are Concerns

    1. Distribution of LIFE examinations would equal 5 percent of the returns examined in the
       Coordinated Industry Case program and 5 percent in the Industry Case program.
    2. Distribution of LIFE examinations by type, size, and number of large business that were
       closed in each program during FY 2004 would remain constant in the next 5 years.
    3. Hours spent on examining the LIFE and non-LIFE returns that were closed in FY 2004
       would remain constant in the next 5 years.
As summarized in Table 1 below, our analysis indicates by allocating 5 percent of the available
examinations to LIFE cases over the next 5 years, the amount of recommended additional taxes
could drop an average of $349 million a year ($1.7 billion over 5 years).
        Table 1:Estmated Decrease in Recommended Additional Taxes Based on
                Allocating 5 Percent of Examination Hours to LIFE Cases
                           A                  B                 C                 D

                                                              Total
                                          Non-LIFE         Recomputed                          Estimated
                     LIFE Recomputed     Recomputed       Recommended       FY 2004 Actual      Revenue
  LMSB Division       Recommended       Recommended        Assessments      Recommended        Gain/(Loss)
    Programs           Assessments       Assessments         (A + B)         Assessments         (C – D)

 Industry Case           $238,475,116    $3,700,154,888    $3,938,630,004    $3,948,872,606    ($10,242,602)

 Coordinated
                         $705,508,934   $14,414,763,662   $15,120,272,596   $15,458,595,736   ($338,323,140)
 Industry Case

            Totals       $943,984,050   $18,114,918,550   $19,058,902,600   $19,407,468,341   ($348,565,741)

Source: Treasury Inspector General for Tax Administration analysis of the IRS AIMS.




                                                                                                         Page 18
                           The Limited Issue Focused Examination Process Has Merit,
                                  but Its Use and Productivity Are Concerns

                                                                                                                                          Appendix V


         Memorandum of Understanding for Limited Issue Focused Examinations

This appendix shows a copy of the template Memorandum of Understanding (MOU) used in
Limited Issue Focused Examinations. It was obtained from the Large and Mid-Size Business
(LMSB) Division. Among other things, use of an MOU allows large businesses and the LMSB
Division to document mutually agreed-upon time periods for requesting and submitting tax
records, to discuss the progress of the examination, and to present and respond to examination
results.
    ________________________________________________________________
                                                    MEMORANDUM OF UNDERSTANDING
                                                             between
                                                         INTERNAL REVENUE SERVICE
                                                                             and
                                               ______________________________________


                                             LIMITED ISSUE FOCUSED EXAMINATION (LIFE)
________________________________________________, hereinafter referred to as “the Taxpayer,” and the Internal Revenue Service (IRS) desire
to enter into this Memorandum of Understanding (MOU) for a Limited Issue Focused Examination (LIFE). The Taxpayer and IRS have indicated their
good-faith intentions to work diligently towards the timely completion of a LIFE examination.

Scope of the LIFE Examination:

In the mutual spirit of accomplishing these objectives, the IRS has provided a list of the full scope of issues identified in the risk analysis of this (these)
return(s). Unless worker classification is specifically listed as a LIFE issue, it will not create a safe harbor under Section 530.

Based upon the following understandings and agreements, the IRS will limit the examination to the LIFE issues identified in the attached list. Any
expansion of scope will require approval of the team manager.


(A)   Periods to be Examined and Targeted Timeframe

      This LIFE MOU will cover the examination of the following returns and does not include employment tax returns unless specifically identified
      below:

                       Form                                         Type of Tax                                       Period(s) Ending




      It is expected that any Revenue Agents’ Report(s) will be issued on or before ____________. If a significant event arises which could impact
      this date, it should be discussed immediately.

(B)   Improved Understanding of the Taxpayer’s Business and Tax Return

      The Taxpayer should provide, and/or continue to provide, the IRS with briefings to include items such as: overview of the industry, company
      structure, financial performance, accounting records, significant events or transactions occurring during the periods under examination, flow of
      relevant information from divisions and subsidiaries into the return preparation process, and other information that would facilitate the audit
      process. The Taxpayer should provide workpapers and supporting documentation for selected transactions, accounts and/or Schedule M items.



                                                                                                                                                    Page 19
                            The Limited Issue Focused Examination Process Has Merit,
                                   but Its Use and Productivity Are Concerns
       The IRS should provide the Taxpayer with a listing of the identified accounts, transactions and/or Schedule M items that are expected to be
       examined by _____________ so that they may be included in the briefings.

(C)    Schedules of Agreed Rollover and Recurring Adjustments

      The Taxpayer will provide the IRS with schedules and computations for all agreed rollover and recurring adjustments from any previously
      examined period, including the impact of any closing agreements or Appeals settlements. These items will be provided by __________.

(D)     Establishing and Adhering to Materiality Thresholds for Scope
        Expansion
      The IRS has determined the scope of the LIFE examination. To maintain the focus of the examination, the IRS and the Taxpayer agree that new
      issues should not be raised. The IRS will not expand the scope to new issues and the Taxpayer will not cause scope expansion through the
      submission of claims or affirmative issues unless the following thresholds are met:
      ____________________________________________________________________________________________________________________
      __________________________________________________________________________________________________

      The following issues will not be subject to a materiality threshold(s) and can be examined regardless of when they are identified: tax shelters,
      coordinated issues, fraudulent items, items contrary to public policy, worker classification issues, executive compensation, and LMSB Field
      Directive issues. The establishment of a materiality threshold will not impact the requirement to verify the correct tax liability computation and the
      correlative adjustments.

      Although every attempt should be made to adhere to the materiality thresholds, both parties reserve the right to correct obvious
      computational/mathematical or accounting errors/omissions. These corrections must not be technical or legal in nature and should require little
      time to resolve.

      Both parties recognize that the materiality thresholds set for this cycle or tax period cannot be automatically utilized in another cycle or tax period.
      If during the course of the examination, it is found that a stated accounting policy or practice has not been followed, the scope of the examination
      may be expanded for this issue without regard to the materiality threshold(s).

      If a non-disclosed abusive tax shelter or listed transaction is discovered during the course of the examination, the IRS will expand the scope of the
      examination to include the issue.

(E)    Identification of Claims and Affirmative Issues

      All claims or affirmative issues exceeding the materiality threshold established in (D) above must be submitted by _________ and will be
      accompanied by supporting documentation.

(F)    Communication

      Communication is a key factor to the successful completion of a LIFE examination. In recognition of this, the Taxpayer and the IRS will schedule
      regular __________ meetings to discuss the status of the examination and to resolve any problems.

      Any resolution of prior cycle/tax years will be shared as soon as it becomes available and its impact on the current examination will be discussed.

(G)    Information Document Request (IDR) Management Process

      The IRS and the Taxpayer recognize that it is generally beneficial to discuss requests for information before a formal IDR (Form 4564) is issued.
      The IRS and the Taxpayer will make a concerted effort to meet and discuss the purpose of the request, the specific records required, correct
      terminology and any other recommendations to assist the Taxpayer in satisfying the request efficiently and effectively.

      All IDRs will contain a notation showing the due date of the IDR response. Unless the examiner and the Taxpayer agree on a specific date for
      answering a particular IDR, all IDRs will be due within ____ days of the issuance. If for any reason this date cannot be met, the Taxpayer should
      notify the IRS immediately.

      The IRS should timely review IDR responses for completeness and discuss with the Taxpayer, if necessary.

      The provisions of the IRS’s IDR Management Process, Internal Revenue Manual (IRM 4.45.13), will be followed.

(H)    Resolution of Notices of Proposed Adjustment – Form 5701 (NOPA)

      The IRS and the Taxpayer recognize that both parties benefit from meaningful discussions of facts and technical positions prior to the issuance of
      a NOPA. The IRS will issue NOPA(s) as soon as reasonable grounds have been established. The Taxpayer agrees to respond to all NOPA(s)
      within ____ days of issuance, indicate agreement or disagreement, and state all relevant facts and legal arguments. The IRS and the Taxpayer
      will continually engage in discussions for the purpose of resolving factual or technical differences.

      The IRS and the Taxpayer recognize the benefit of resolving issues at the earliest opportunity and commit to exploring the use Alternative Dispute
      Resolution tools.




                                                                                                                                                   Page 20
                             The Limited Issue Focused Examination Process Has Merit,
                                    but Its Use and Productivity Are Concerns

(I)    Termination of the LIFE Process

      The LIFE process is a mutual undertaking and requires a great deal of cooperation and commitment by both parties. Significant or consistent
      failures by either party to adhere to the agreements set forth in this MOU may result in termination of the LIFE process.

      Such failures include, but are not limited to:

      1) Not adhering to IDR response times or providing incomplete responses

      2) Not entering into issue resolution discussions

      3) Filing claims below the materiality threshold or the filing of claims without
      supporting documentation

      4) Filing claims above the materiality threshold(s) after the date specified

      5) Not disclosing an abusive tax shelter or listed transaction

      6) Not adhering to any other commitment(s) included in this MOU

      Termination of this agreement may result in a reversion to a traditional, full scope examination. The scope may be expanded to include any or all
      of the issues identified in the list of full scope issues identified for this (these) return(s). This may extend the estimated completion date of the
      examination.

The undersigned representatives of the Taxpayer and the IRS hereby indicate their mutual agreement to the objectives and procedural guidelines
established herein. It is understood by both parties that this document is intended to govern the conduct of the examination, but is not a legally
enforceable agreement.

Signatures and date:

For the Taxpayer:

______________________________________________________________
Title:__________________________________________________________
Date____________________

For the IRS:
______________________________________________________________
LMSB Team Manager
Date ___________________




                                                                                                                                                Page 21
The Limited Issue Focused Examination Process Has Merit,
       but Its Use and Productivity Are Concerns

                                                           Appendix VI


    Management’s Response to the Draft Report




                                                               Page 22
The Limited Issue Focused Examination Process Has Merit,
       but Its Use and Productivity Are Concerns




                                                           Page 23
The Limited Issue Focused Examination Process Has Merit,
       but Its Use and Productivity Are Concerns




                                                           Page 24
The Limited Issue Focused Examination Process Has Merit,
       but Its Use and Productivity Are Concerns




                                                           Page 25
The Limited Issue Focused Examination Process Has Merit,
       but Its Use and Productivity Are Concerns




                                                           Page 26
The Limited Issue Focused Examination Process Has Merit,
       but Its Use and Productivity Are Concerns




                                                           Page 27
The Limited Issue Focused Examination Process Has Merit,
       but Its Use and Productivity Are Concerns




                                                           Page 28
